OIG Investigative Reports Press Release, Madison, WI. 10/24/2012 - Two Sentenced for Student Loan Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT of WISCONSIN
NEWS
Two Sentenced for Student Loan Fraud Scheme
FOR IMMEDIATE RELEASE
October 24,2012
Madison, Wis. - John W. Vaudreuil, United States Attorney for the Western District of Wisconsin, announced that Nicole Griffin, 34, and Richard Griffin, 35, husband and wife from Prior Lake, Minn., were sentenced today by U.S. District Judge Barbara B. Crabb to 20 months and 18 months respectively, without parole, to be followed by three years supervised release and ordered to pay $333,546.55 in restitution for defrauding the Federal Student Aid program.
Maria A. Hurt, 35, Harvey, Ill., was previously sentenced on September 27, 2012, by U.S. District Judge Barbara B. Crabb to 8 months in prison, three years of supervised release, and ordered to pay restitution for her role.
On January 12, 2012, a federal grand jury sitting in Madison returned a 19-count indictment charging Nicole and Richard Grifffin, along with Hurt, with mail fraud and identity theft arising from a seven-year scheme to defraud the Federal Student Aid program. Nicole and Richard Griffin pleaded guilty to one count each of mail fraud on August 8, 2012, and Hurt pleaded guilty on July 19, 2012, to one count of mail fraud.
According to the investigation, from August 2003 through January 2010, Nicole and Richard Griffin fraudulently utilized in excess of 50 persons' personal identifiers to fraudulently apply for federal student financial aid and thereby intended to defraud the United States in excess of $400,000.
Nicole Griffin fraudulently applied for federal and state student financial aid at schools in Minnesota by falsifying her eligibility for financial aid and those of other persons who either had their identities stolen, or voluntarily provided the information to her. The persons whose identities were used did not attend the colleges for which financial aid was obtained and, in many cases, did not even know their identities were being used.
Richard Griffin recruited persons to provide personal identifying information to his wife and also deposited fraudulently obtained financial aid checks into accounts controlled by him. Hurt, upon the request of Nicole Griffin, stole the personal identifiers of persons who were enrolled in a welfare-to-work program in Harvey, Ill., where she was employed, and provided those to Nicole Griffin.
United States Attorney John Vaudreuil said, "For many people, federal student aid provides the only avenue to higher education. When criminals corrupt the system, deserving students are denied aid and the public loses confidence in the entire program."
Vaudreuil praised the work of the Office of Inspector General for the U.S. Department of Education and the U.S. Postal Inspection Service for their work in the case, saying, "These law enforcement agencies relentlessly pursued those who defrauded the system and will continue to do so."
The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access to higher education. Fraud rings, like the ones in this case, mainly target lower-cost institutions because federal student aid awards easily satisfy tuition at these schools. Funds in excess of the tuition and other school fees, known as a "refund check," is then forwarded to the student to be used for other authorized education related expenses including books, supplies, housing, and subsistence. The "refund check" is what the fraud ring participants seek, and what the Griffins sought in this case. But the alleged students have no intention of pursuing a degree, or the purported students are fictitious, and the criminal simply pockets this check.
The charges against the Griffins and Hurt were the result of an investigation conducted by Office of Inspector General, Department of Education (Chicago office) and the U.S. Postal Inspection Service. The prosecution of the case has been handled by Assistant U.S. Attorney Peter M. Jarosz
Top
Printable view
Last Modified: 10/31/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov